BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief in
Opposition in 20-17 44, Google, Inc. v. John Doe, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, 3 copies by Next Day and e-mail service to the
following parties listed below, this 8th day of
September, 2021:
Paul William Cane Jr.
Paul Hastings LLP
515 South Flower Street
25th Floor
Los Angeles, CA 90071
(213) 683-6000
pa ulcane@paulhastings.com
Counsel for Petitioners
Chris Baker
Counsel of Record
Baker Curtis & Schwartz, P.C .
1 California St, Ste 1250
San Francisco, CA 94104
cbaker@bakerlp .com
(415) 433-1064
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 8, 2021.

Becker Gallaghe egal Pu~
ng, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
r ~brr 1ary 14, 2. r3

